Legal Printers,

LLC
5614 Connecticut Avenue, NW #307
Washington, DC 20015

202-747-2400
202-449-9565 Fax
LegalPrinters.com

August 10, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
Re:

Ahmed Halim v. United States

Dear Sir or Madam:
I hereby certify that at the request of the Petitioner, on August 10, 2020, I
caused service to be made pursuant to Rule 29 and the Temporary Order of April 15,
2020, on the following counsel for the Respondent:
RESPONDENT:
The Honorable Jeffrey B, Wall
Acting Solicitor General
United States Department of Justice
Room 5614
950 Pennsylvania Ave. NW
Washington, DC 20530-0001
202-514-2217
supremectbriefs@usdoj.gov
This service was effected by depositing one copy of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely
-------------- j

Jack Suber, Esq.
Principal

LISA KAY NICHOLSON
Notary Public
State of Maryland
Montgomery County
My commisston exp. October 12,2022

W

Sworn and subscribed before me this 10th day of August 2020.

